Memorandum from the Inspector General, ET 4C-K



September 29, 2008

TVA Board of Directors

FINAL REPORT – INSPECTION 2007-11401 – REVIEW OF TVA'S CUSTOMER
RELATIONS PERFORMANCE



Attached is the final report which answers the basic question of "How is TVA doing in
regards to Customer Relations." A draft of this report was discussed with Ken Breeden on
September 16, 2008.

This review is the first in a series that will benchmark TVA’s performance in key areas. The
Office of the Inspector General will issue reports annually on TVA’s performance pertaining
to not only customer relations, but also financial, operational, and environmental
performance. These reports are intended to give objective assessment to both the TVA
Board of Directors and Congress regarding TVA’s performance and to highlight significant
challenges facing TVA.

These reports will be placed on our Web site and delivered to members of Congress.
Please advise us of any sensitive information in this report which you recommend be
withheld.

We will be happy to brief you on this report. If you have specific questions about this report,
please contact Ben R. Wagner, Deputy Inspector General, at (865) 633-7500 or Robert E.
Martin, Assistant Inspector General, Audits and Inspections, at (865) 633-7450.




Richard W. Moore

JAL:SDB
Attachment
cc (Attachment):
     Kenneth R. Breeden, OCP 1F-NST
     Peyton T. Hairston, Jr., WT 7B-K
     Tom D. Kilgore, WT 7B-K
     John E. Long, Jr., WT 7B-K
     Emily J. Reynolds, OCP 1L-NST
     OIG File No. 2007-11401
            Tennessee Valley Authority
            Office of the Inspector General


Inspection Report



REVIEW OF TVA'S
CUSTOMER RELATIONS
PERFORMANCE




                                2007-11401
                          September 29, 2008
    Office of the Inspector General                                            Inspection Report


 
                                      INTRODUCTION
 
 
    What We Are Trying To Accomplish
 
    This is the first in a series of inspections that seek to answer the question, “How is
    TVA doing?” Although there are existing sources to answer that question, those
 
    sources often tend to be either hyper technical or anecdotal. Neither adequately
    informs TVA stakeholders as to exactly how TVA is doing in key areas. Some
    sources require interpretation from TVA management which lacks needed
 
    objectivity. We are attempting to fill the gap that exists in the information available
    for most TVA stakeholders to be able to understand how TVA “stacks up” against
    other utilities.

 
    What We Are Evaluating
 
    We will be addressing four key strategic areas including financial health, operational
    performance, environmental stewardship, and customer relations. We believe that
    if TVA’s performance in these areas is documented and understood, the question
 
    “How is TVA doing?” will have been answered. Our reviews are intended to give an
    objective evaluation of TVA’s performance and to present as appropriate the
    significant management challenges facing TVA. The “audience” for the Office of
    Inspector General (OIG) is primarily the TVA Board, Congress, and residents of the
    Tennessee Valley.


    Why the Office of Inspector General Should Do These Reviews

    There are three reasons why this work should fall to the OIG: (1) We have the
    expertise to do it. For over 20 years the OIG has been scrutinizing TVA programs
    and operations, and we have developed a cadre of professionals immersed in the
    analysis of utility work. Simply put, our people know TVA; (2) We have the
    independence to do it. The OIG does not have a stake in the outcome of any report
    we write. We are neither fans nor foes of TVA management. Whether TVA ranks
    high or low in comparison to other utilities does not in any way effect the OIG. We
    have complete discretion to look wherever we want and to report the facts as we
    find them; and (3) We print what we do. Our work is public and posted on our Web
    page; the good, the bad, and everything in between. Transparency and
    accountability should be the hallmark of a government agency. Our very public
    work makes that more likely for TVA.




                                               1
    Office of the Inspector General                                                       Inspection Report


    Why Now?
 
    The United States is facing an energy crisis of historic proportions. TVA is in the
    throes of making strategic decisions that will effect generations of Valley residents.
    The performance of TVA should be all the more transparent to all its stakeholders.
    A high performing, competitive, and forward-thinking TVA is more critical now than
 
    ever before.
 
 
    Why This Particular Report on Customer Relations?
 
    Customer relations is not about the creation of warm and fuzzy feelings.
    Customer relations is a prime determinate of sustainable success. The strategic
    challenges facing TVA are too daunting not to have a shared vision with its
    customers that is mutually beneficial. The key has always been and will always be
    healthy communication. How TVA scores against other utilities in any other
 
    category is likely to be significantly impacted by how united its customers are in
    supporting TVA’s vision for the future.
 
    How We Did This Report

    This inspection report will provide a high-level evaluation of TVA’s performance in
    the area of customer relations. Specifically, we reviewed TVA’s strategic goals and
    objectives focusing our evaluation on the three primary drivers: reliability, rates, and
    customer satisfaction. In conducting this review, we: (1) assessed key performance
    measures and their alignment with the key strategic objectives, (2) evaluated TVA’s
    results relative to targets and available benchmark information, and (3) identified key
    management challenges that could affect how successful TVA is in achieving these
    strategic objectives.

    In evaluating TVA’s customer relations performance results, we considered how
    TVA’s results compare to (1) those of others and (2) the goals TVA sets for itself, as
    shown below. We also considered TVA initiatives for improving future performance.


      RESULTS                         4-5 Star                  2-3 Star                   1 Star
                                       Good                       Fair                     Poor


      How do TVA’s           •    Measured results      •   Measured results       •   Measured results
      results compare to          compare favorably         compare favorably          compare favorably
      (1) those of others         with peer group for       with peer group for        with peer group for
      and (2) the goals it        most of the key           several of the key         few of the key
      sets for itself?            metrics.                  metrics.                   metrics.
                             •    Measured results      •   Measured results       •   Measured results do
                                  achieve TVA’s             achieve a portion of       not achieve TVA’s
                                  goals.                    TVA’s goals.               goals.


    More information regarding our objectives, scope, and methodology can be found in
    the Appendix.
                                                        2
    Office of the Inspector General                                            Inspection Report


 
                                      BACKGROUND
 
    TVA is primarily a wholesaler of power and sells power to 159 local distributors.
    TVA reports that this serves 8.8 million people and 650,000 businesses and
    industries in the seven-state TVA service area. It covers almost all of Tennessee
    and parts of Alabama, Georgia, Kentucky, Mississippi, North Carolina, and Virginia.
    TVA also directly sells power to about 59 large industrial customers and federal
 
    installations and 12 utilities with which TVA has power-exchange agreements.
 
    •   Distributors - There are 159 distributors that resell TVA power to consumers--
 
        109 municipals (munis)s and 50 co-ops. The munis and the co-ops represent the
        wholesale base of TVA's business, accounting for about 84 percent of TVA's
 
        revenue in fiscal year (FY) 2007.

    •   Directly Served Customers - Fifty-three industrial customers and six federal
        installations buy TVA power directly. They represent 14 percent of total revenue
        in FY 2007.
 
    •   Offsystem Customers - Twelve surrounding utilities buy power from TVA on
        the interchange market. “When TVA has more power available than its
        customers are using, it may be able to sell that power to other power companies.
        Bulk Power Trading sells power to 12 offsystem customers located outside the
        TVA service territory to which the TVA Act permits TVA to sell power.”

    According to the 2007 TVA Strategic Plan, TVA’s strategic objective for its power
    distributor and directly served industrial customers is to: “maintain power
    reliability, provide competitive rates, and build trust with TVA’s customers.”
    Critical success factors include:

    •   Strengthening relationships and trust by being responsive to stakeholder needs;
    •   Developing a portfolio of product and pricing structures that more accurately
        reflect the costs of serving load at different times and levels of use;
    •   Partnering with distributors and directly served customers to encourage
        conservation, promote energy efficiency, and reduce peak demand;
    •   Partnering with customers to limit volatility in rates and participate in power
        supply through shared generation ownership; and
    •   Assisting states, communities, and distributors in sustaining economic
        development programs.




                                                3
    Office of the Inspector General                                                     Inspection Report


    As shown in Figure 1, TVA currently has various performance metrics in place to
    monitor TVA’s performance toward successful implementation of its strategy.
    Figure 1:      Performance Measures For Customer Strategy
 
             Measures                                            Definition
     Customer Satisfaction            Measure of distributors’ and directly served customers’
 
     Index                            satisfaction with TVA in a variety of areas.
     Participation in Energy          Measure of distributors’ participation in demand side
     Efficiency and Peak-             management (DSM) programs and pilots.
     Shaving Initiatives
 
     Delivered Cost of Power          Measure of TVA’s Delivered Cost of Power (excluding FCA
     (TVA and Distributor)            costs). It specifically represents TVA's total cost in dollars per
                                      MWh of power sold to customers.
 
     Connection Point                 Measures of reliability from the TVA customer’s perspective.
     Interruptions (CPI)              It tracks interruptions of power, including momentary, at
                                      connection points caused by the transmission system.
     Economic Development             Measure of effectiveness of TVA’s sustainable economic
     Index                            development efforts. The components of the index include
                                      areas such as new job creation, jobs retained, and capital
                                      dollar investment.
 
    Source: TVA 2008 Balanced Scorecard.




                                                      4
    Office of the Inspector General                                                              Inspection Report



 
                                   SUMMARY CONCLUSIONS
 
 
    Overall, TVA’s performance results in the area of customer relations are excellent.
    In summary:
 
    •     TVA has performed exceptionally well in delivering electric service with
          99.999 percent reliability and performed better than the industry in key
 
          performance metrics. The challenge for TVA will be to maintain this high rating
          in the face of shrinking reserves and higher than average forced outage rates
          which could impact TVA’s reliability in the future.
 
    •     TVA’s electricity rates are competitive given that rates are (1) 24 percent below
          the national average, (2) below the median when compared with neighboring
          utilities1, and (3) at the median when compared to other utilities within one
          wheel2 of TVA. TVA uses a debt-service coverage methodology to derive
          annual revenue requirements in a manner similar to that used by other public
          power entities. Factors that present a challenge to the competitiveness of TVA’s
 
          rates include:
 
          – Higher Non-fuel Operation and Maintenance (O&M) costs. A May 9, 2008,
            benchmarking study found TVA to be in the bottom quartile when compared
            to other utilities.
          − Generation Mix and Average Fuel Cost. Each power generating utility has a
            unique mix of generating assets (e.g., hydro, fossil, nuclear, and combustion
            turbines) which dictates the type of fuel required to generate electricity. One
            utility may have more plants that use coal while another may have more
            power produced using nuclear reactors. How TVA’s rates compare with
            other utilities is affected significantly by the demand for electricity by TVA's
            customers, the availability of various generating units, and the availability and
            cost of fuel.

    •     TVA slightly outperformed its potential competitors in FY 2007 in overall
          customer satisfaction. The highest number of negative comments received
          came from direct-served customers who provided a significant negative
          response to the interrupted rate products.

    However, it is important to note that TVA faces many significant management
    challenges in maintaining effective relations with its customers. We have included
    in this report a discussion of the top four challenges that affect the area of customer
    relations including: (1) high cost of new generation; (2) uncertainty around fuel cost
    and delivery; (3) managing an aging generation fleet with potential changes to
    regulatory requirements; and (4) inherent conflicts in TVA’s role as a regulator.

    1
        For neighboring utilities, all but TVA's average commercial rate was below the median when benchmarked or
        compared with other utilities for 2007.
    2
        One wheel defined as a movement of power across intervening hubs with each hub counting as one wheel.
        CBOT® Electricity Futures and Options Reference and Applications Guide, ComEdSM and TVA Hub
        Electricity Futures and Options: The Reference and Applications Guide, page 12.
                                                           5
              Office of the Inspector General                                                                Inspection Report



              The following discussion provides the basis for our conclusions.
      
      
                                            Maintaining Power Reliability
      
      
              Reliability for an electric system is, most simply, the extent to which consumers can
              obtain electricity from the system in the amount they want. In order to provide
              electricity to consumers in a reliable manner, organizations that generate and
              transmit electricity must ensure that the generating and transmission line capacities
  99.999      are adequate to meet demand. They must also ensure that the proper operating
  percent     procedures for the bulk power system are followed. Most disturbances that affect
  reliable    consumers are caused by either plant shutdowns or adverse weather conditions
  service     affecting the electric distribution system. The cost of avoiding distribution system
  delivery    outages is very high.3
   (p.26)

              The TVA transmission system is one of the largest in North America. The system
              delivered nearly 175 billion kilowatt-hours of electricity in 2007 and has operated
      
              with 99.999 percent reliability over the last eight years in delivering electricity to
              customers. To the extent federal law allows access to the TVA transmission
      
              system, the TVA transmission organization offers transmission services to others to
              transmit power at wholesale in a manner that is comparable to TVA's own use of
              the transmission system. TVA has also adopted and operates in accordance with a
              published Standards of Conduct for Transmission Providers and appropriately
              separates its transmission functions from its marketing functions.
      
              TVA uses the SGS Benchmarking Study for reliability data. Based on data from
              this study and on data calculated from this study by TVA personnel, TVA ranks in
      
              the first quartile among the 32 participant companies in four key industry reliability
              measures: Load Not Served (LNS), Connection Point Interruption (CPI) frequency,
      
              System Average Interruption Frequency Index (SAIFI), and System Average
              Interruption Duration Index (SAIDI).
      
              • TVA performed 25 percent better than top quartile performance on LNS which is
                a measure of the magnitude and duration of transmission system outages that
      
                affect TVA customers, expressed in system minutes (See Figure 2). LNS
                excludes major events due to storms. [LNS = (% of total load not served)
                multiplied by (number of minutes in the period)]
    Top
  quartile
performance   • TVA performed 32 percent better than top quartile performance on CPI
                frequency which measures reliability from TVA's customer’s perspective (See
                Figure 2). It tracks interruptions of power, including momentary, at connection
                points caused by the transmission system. [CPI = Number of Interruptions/

              3
                  Source of information was article published by the Energy Information Administration, Official Energy
                  Statistics for the United States (U.S.) Government, U.S. Department of Energy, titled Performance Issues for
                  a Changing Electric Power Industry.
                                                                      6
    Office of the Inspector General                                                                                        Inspection Report


                            Number of Connection Points (Number of interruptions includes all interruptions,
                            regardless of duration)] CPI excludes interruptions during declared major
                            storms and is lightning normalized.
 
    •                       TVA performed 19 percent better than top quartile on “system average
                            interruption frequency index” which is commonly used as a reliability indicator by
 
                            electric power utilities (See Figure 3). SAIFI is the average number of
                            interruptions that a customer would experience, and is calculated as total
                            number of customer interruptions divided by total number of customers served.
    •                       TVA performed 38 percent better than top quartile on “system average
                            interruption duration index” which is commonly used as a reliability indicator by
                            electric power utilities (See Figure 4). SAIDI is the average outage duration for
 
                            each customer served, and is calculated as sum of all customer interruption
                            durations divided by total number of customers served.
 
    Charts depicting this performance are shown below.
 
    Figure 2
                                           LNS and CPI (frequency)* Benchmarks
 
                                                     [5-Year Averages (2002 through 2006)]

                                   Load Not Served Benchmark                                         Connection Point Interruption
                                                                                                        frequency Benchmark
                            16
                                                         13.7    13.9

                                                                                               2                             1.78

                            12
     LNS (System Minutes)




                                                                                                                    1.40
                                                                                              1.5           1.28
                                                                            CPI (frequency)




                             8
                                               6.0                                                   0.87
                                                                                               1

                                     4.5

                             4
                                                                                              0.5




                             0                                                                 0
                                   TVA      Q1          SE      AVG                                 TVA     Q1     AVG      SE


                                 TVA Results                            Average for study participants in
                                                                        the southeast U.S.
                                 1st Quartile Performance               Average for all study participants

    *Industry benchmarks were calculated using the 2007 SGS Benchmarking Study. LNS benchmarks
     are extrapolated using Delivery Point-SAIDI (based on actual duration) and CPI benchmarks are
     extrapolated using Delivery Point-SAIFI (based on frequency) for Delivery Points.

    Source: 2007 SGS Transmission Reliability Benchmarking Study--PowerPoint presentation provided
            by TVA Power System Operations Transmission Operations and Maintenance.

                                                                        7
    Office of the Inspector General                                                                                                                                                                                                                          Inspection Report


    Figure 3
 
                                                        System Average Interruption Frequency Index
                                                                    Calendar Year 2006
                                             8




                                                                                                                                                                                                                                                                        6.67
 
          Interruptions per Delivery Point




                                             6




                                                                                                                                                                                                                                                               4.72
 




                                                                                                                                                                                                                                                     3.99
                                                                                                                                                                                                                                            3.73
                                             4
 




                                                                                                                                                                                                                                    2.23
                                                                                                                                                                                                                            2.22
                                                                                                                                                                                                                   1.95
                                                                                                                                                                                                         1.88
                                                                                                                                                                                               1.76
                                                                                                                                                                                   1.75
                                                                                                                                                                          1.61
                                                                                                                                                                1.56
 




                                                                                                                                                      1.22
                                                                                                                                             1.13
                                                                                                                                     1.04
                                             2

                                                                                                                            1.02
                                                                                                                    0.99
                                                                                                            0.87
                                                                                                    0.83
                                                                                   0.61
                                                                                            0.61
                                                                        0.56
                                                                 0.51
                                                       0.43




 
                                                 0.4




                                             0
                                                                                                    TVA




                                                                                                                                     XA
                                                  XK




                                                                                                                    O
                                                                                                                            XM




                                                                                                                                                      Y


                                                                                                                                                                           S
                                                                                                                                                                                   Q
                                                                                                                                                                                               J
                                                                                                                                                                                                         XC




                                                                                                                                                                                                                                                               XL
                                                                                                                                                                                                                   I
                                                                                                                                                                                                                            XI
                                                       XO
                                                                 H


                                                                                   XQ
                                                                            T


                                                                                            XP


                                                                                                            U




                                                                                                                                              N


                                                                                                                                                                XG




                                                                                                                                                                                                                                    L
                                                                                                                                                                                                                                            C
                                                                                                                                                                                                                                                     K


                                                                                                                                                                                                                                                                         D
 
    Source: SGS Statistical Services Inc., 2007 Transmission Reliability Benchmarking Survey,
 
            page 51.
 
    Figure 4

                                             System Average Interruption Duration Index, Delivery Point
                                                                                                                        Calendar Year 2006

                                                 150




                                                                                                                                                                                                                                                                      108.02
                                                                                                                                                                                                                                                             106.49
                                                                                                                                                                                                                                                    102.63
     Minutes per Delivery Point




                                                                                                                                                                                                                                            83.21



                                                 100
                                                                                                                                                                                                                                    58.87
                                                                                                                                                                                                                            38.68
                                                                                                                                                                                                                    35.32
                                                                                                                                                                                                           26.72




                                                  50
                                                                                                                                                                                                 25.81
                                                                                                                                                                                       23.68
                                                                                                                                                                               22.93
                                                                                                                                                                       20.86
                                                                                                                                                             19.54
                                                                                                                                                    18.39
                                                                                                                                            16.18
                                                                                                                                    16.08
                                                                                                                            15.66
                                                                                                                    14.80
                                                                                                            11.60
                                                                                                     9.94
                                                                                             8.83
                                                                                     6.86
                                                                            6.64
                                                                     5.48
                                                              0.83




                                                   0
                                                            TVA




                                                             XA
                                                             XK

                                                             XC




                                                              U
                                                              H
                                                              C




                                                              N

                                                              K




                                                              D
                                                             XM




                                                             XP




                                                              Y




                                                              S
                                                                I
                                                              F
                                                              T

                                                             XQ

                                                              L

                                                              XI

                                                              Q




                                                             XO
                                                              O




                                                             XL
                                                             XG
                                                               J




    Source: SGS Statistical Services Inc., 2007 Transmission Reliability Benchmarking Survey,
            page 66.




                                                                                                                                                       8
             Office of the Inspector General                                         Inspection Report


             TVA Capacity Margin
      
             Another commonly used measure in planning for adequate generating capacity
      
             reliability is capacity margins. Capacity margins indicate “the amount of generating
             capacity available to provide for scheduled maintenance, emergency outages,
             system operating requirements, and unforeseen electricity demand.” They offer one
 Reserve
margins at
             of the simplest indications of how much generating capacity would be available
15 percent   above the projected peak demand if all capacity were on-line.4 Generating capacity
             should contain a reserve margin sufficient to cover unforeseen events such as
             temperature variations, higher than anticipated demands, and unplanned generation
             outages.
             The historical reserve margin over the past five years in TVA’s plan has been
             approximately 15 percent of the total TVA medium load forecasted demand.
             According to TVA management a 15 percent reserve margin, calculated on firm needs
      
             is in alignment with the reserve margins established by other entities in the utility
             industry, which range from 12 percent to 18 percent. The 2005 Energy Policy Act
      
             gave the Federal Energy Regulatory Commission (FERC) full regulatory authority over
             the North American Electric Reliability Council (NERC) reliability rules, with
             enforcement ability.
      
             According to TVA officials, based on new operating reserve requirements, TVA is
             evaluating the risks and the drivers behind a proposed reserve margin change to
   Power     18 percent. As shown in Figure 5, TVA’s demand for power has increased since
  Demand     1997 and forecasts show reserve margins dropping below 15 percent in 2009.
increasing   Additionally, demand for power in TVA’s service territory is projected to increase at
     at      a rate of 2 percent per year. Forecasts indicate the Tennessee Valley will need
 2 percent   from 6 to 12 gigawatts of additional capacity over the next 10 to 15 years.
 annually
             Figure 5: Peak Demand for TVA Power for Ten Year Period Ending July 2006
                       (in megawatts)




             Source: InsideTVA, Planning today for tomorrow's power. March 2007.

             4
                 See Footnote 3 for source of information.
                                                             9
           Office of the Inspector General                                       Inspection Report


     
           Forced Outage Rates
     
           Outage performance is another key component in maintaining reliability with
           increasing peak demands and overall electricity consumption. Equivalent forced
           outage rate is the ratio of unplanned energy losses during the period compared to
           the maximum availability, excluding planned outages. For the period TVA used to
           measure this benchmark, the Peer Group included 18 utilities in proximity to the
     
           TVA service area and TVA was in the bottom quartile, as shown in Figure 6.
     
           Figure 6
     
     
     
     
     
     
     
     



 TVA
outage
rate in
bottom
quartile

    




           Source: TVA Benchmarking Summary, May 9, 2008, page 14.

           Forced loss rate is the ratio of unplanned energy losses during the period compared
           to the maximum availability, excluding planned outages. Based on third quarter
           2007 INPO data, the Peer Group included all nuclear units and TVA ranked in the
           third quartile, as shown in Figure 7.




                                                      10
    Office of the Inspector General                           Inspection Report


    Figure 7
 
 
 
 
 
 
 
 
 
 
 
 
 
 



    Source: TVA Benchmarking Summary, May 9, 2008, page 16.




                                              11
             Office of the Inspector General                                                  Inspection Report


      
                                       Providing Competitive Rates
      
      
      
             Typically, a utility is regulated by a public utility commission, which approves the
TVA rates
             rates the utility may charge. TVA, however, is self-regulated with respect to
24 percent
             rates. The TVA Act gives the TVA Board sole responsibility for establishing the
  below
 national
             rates TVA charges for power. These rates are not subject to judicial review or
 average     review or approval by any state or federal regulatory body. In setting TVA’s rates,
             however, the TVA Board is charged by the TVA Act to have due regard for the
             objective that power be sold at rates as low as are feasible.
      
             TVA sells electricity in a service area that is largely free of competition from other
             electric power providers. This service area is defined primarily by two provisions of
             law: One called the “fence” and one called the “anti-cherrypicking” provision. The
             fence limits the region in which TVA or distributors of TVA power may provide
      
             power. The anti-cherrypicking provision limits the ability of others to use the TVA
             transmission system for the purpose of serving customers within TVA’s service
      
             area. Bristol, Virginia, was exempted from the anti-cherrypicking provision.

             As discussed above, TVA is primarily a wholesaler of power and sells power to
             159 local distributors, about 53 direct-served industrial customers, 6 federal
             installations, and 12 utilities with which TVA has power-exchange agreements. The
             TVA power contract governs the relationship between TVA and distributors,
             including the prices they pay and the resale rates they use. Comparison of rates
             will generally include the distributor markups applied to TVA’s wholesale rate.
      

             Review of rate benchmarking data supplied by TVA for the 12 months ended
             September 2007 noted that TVA’s rates were below the national average in the
             major product lines as shown in Figure 8 below.

             Figure 8: Comparison of TVA Rates to National Averages

              Rate                                                 TVA            National Average

              Average Residential Price                          7.8 ¢/kWh            10.5 ¢/kWh
              Average Commercial Price                           8.0 ¢/kWh             9.6 ¢/kWh
              Average Industrial Price                           4.6 ¢/kWh             6.3 ¢/kWh
              Average Total Retail Price                         6.6 ¢/kWh             9.1 ¢/kWh
              Percent Change in Total Retail Rates               1.8 %                    3.0%
             Source: Rate Benchmarking based on Energy Information Association (EIA) Monthly Electric Utility
                     Database (Form EIA-826), PowerPoint presentation provided by TVA Strategy, Pricing and
                     Contracts, Pricing and Product Development personnel.



                                                            12
              Office of the Inspector General                                         Inspection Report


              Furthermore, when TVA compared rates to neighboring utilities, TVA's rates were
 TVA rates    competitive and lower than median in all cases, except for average commercial rates.
at or below   TVA Pricing and Product Development, Strategy, Pricing and Contracts, developed
  median      the following charts (See Figures 9-12) using data reported to EIA on a monthly
   when
 compared
              basis, using Form EIA-826, for 14 neighboring utilities that are highlighted in purple.
  to likely   TVA's Chief Executive Officer requested that the additional three holding companies,
competitors   highlighted in light green and emphasized with an asterisk, be added to the charts.
              These holding companies report their data annually to EIA using Form EIA-861.
      
              Specifically, when TVA's average residential, commercial, industrial, and retail rates
              were compared to a peer group of 14 neighboring utilities for the 12-month period
              ending September 2007:

              •   Ten neighboring utilities had a higher average residential rate, as shown in
                  Figure 9. While TVA's average residential rate was about 7.8 ¢/kWh, the lowest
                  rate in the group was over 6 ¢/kWh and the highest rate was over 10 ¢/kWh.
      
              •   Six neighboring utilities had a higher average commercial rate, as shown in
      
                  Figure 10. While TVA's average commercial rate was about 8.0 ¢/kWh, the
                  lowest rate in the group was over 5.5 ¢/kWh and the highest rate was about
      
                  10 ¢/kWh.

              •   Eleven neighboring utilities had a higher average industrial rate, as shown in
                  Figure 11. While TVA's average industrial rate was about 4.6 ¢/kWh, the lowest
                  rate in the group was just under 4.0 ¢/kWh and the highest rate was over
                  6.5 ¢/kWh.
              •   Nine neighboring utilities had a higher average total retail rate, as shown in
                  Figure 12. While TVA's average total retail rate was about 6.6 ¢/kWh, the lowest
                  rate in the group was just above 5.0 ¢/kWh and the highest rate was over
                  8.5 ¢/kWh.




                                                       13
    Office of the Inspector General                                                    Inspection Report


    Figure 9: Average Residential Rates for 14 Neighbors and TVA for the 12 months
              ended September 2007
 
 
 
 
 
 
 
 
 
 
 
 
 


    Source:    Rate Benchmarking based on Energy Information Association (EIA) Monthly Electric Utility
               Database (Form EIA-826), PowerPoint presentation provided by TVA Strategy, Pricing and
               Contracts, Pricing and Product Development personnel, page 7.

    Figure 10: Average Commercial Rates for 14 Neighbors and TVA for the
               12 months ended September 2007




    Source: Rate Benchmarking based on Energy Information Association (EIA) Monthly Electric Utility
            Database (Form EIA-826), PowerPoint presentation provided by TVA Strategy, Pricing and
            Contracts, Pricing and Product Development personnel, page 8.
                                                    14
     Office of the Inspector General                                                    Inspection Report


     Figure 11: Average Industrial Rates for 14 Neighbors and TVA for the 12 months
                ended September 2007
  
  
  
  
  
  
  
  
  
  
  
  
     Source:    Rate Benchmarking based on Energy Information Association (EIA) Monthly Electric Utility
                Database (Form EIA-826), PowerPoint presentation provided by TVA Strategy, Pricing and
                Contracts, Pricing and Product Development personnel, page 9.

     Figure 12: Average Total Retail Rates for 14 Neighbors and TVA for the 12 months
                ended September 2007




     Source:    Rate Benchmarking based on Energy Information Association (EIA) Monthly Electric Utility
                Database (Form EIA-826), PowerPoint presentation provided by TVA Strategy, Pricing and
                Contracts, Pricing and Product Development personnel, page 10.




                                                     15
    Office of the Inspector General                                           Inspection Report


     We also noted that TVA retail rate benchmark data for the three-year period
     2004-2006, involving a peer group which included utilities within one wheel of
     TVA service territory and holding company revenue greater than $3 billion,
 
     found TVA's rate to be the median, as shown in Figure 13.
 
    Figure 13
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
    Source: TVA Benchmarking Summary, May 9, 2008, page 5.
 
    Using data from the EIA Web site, we found that TVA was second lowest by
 
    fractions of a cent among eight utilities we identified as potential competitors in
    Average Industrial Price for the 12 months ended September 2007, as shown in
    Figure 14.

    Figure 14
 
                   Comparison of Average Industrial Rates with 8 Potential 
 
                   Competitors for 12 Months Ended September 30, 2007 in 
                                        cents/ Kwh
                   0.10
 
                   0.00




                                                 16
             Office of the Inspector General                                                              Inspection Report


             Debt-Service Coverage
     
             In setting rates to cover the costs set out in the TVA Act, TVA uses a debt-service
75 percent
             coverage (DSC) methodology to derive annual revenue requirements in a manner
  of rate
             similar to that used by other public power entities that also use the DSC rate
   base
consist of
             methodology. The DSC method is essentially a measure of an organization’s ability
 fuel and    to cover its operating costs and to satisfy its obligations to pay principal and interest
purchased    on debt. TVA believes this method is appropriate because of TVA’s debt-intensive
  power      capital structure.5 This ratemaking approach is particularly suitable for use by
costs and    highly leveraged enterprises (i.e., financed primarily, if not entirely, by debt capital).
O&M costs    The revenue requirements (or projected costs) are calculated under the DSC
             method as the sum of the components shown in Figure 15.
     
             Figure 15: Components of Revenue Requirement Using the Debt-Service
                        Coverage Method

                                                               2007       Percentage
                 Fuel and purchased power costs                 3,382          44%
                                                                               31%
                 Operating and maintenance costs                2,382
                 Tax equivalents                                  452           6%
                 Debt-service coverage                          1,473          19%
     
             Source: TVA 2007 SEC 10-K filing, Statement of Cash Flows, page 92.6

             Once the revenue requirements (or projected costs) are determined, this amount is
             compared to the projected revenues for the year in question, at existing rates, to
             arrive at the shortfall or surplus of revenues as compared to the projected
     
             costs. Subject to TVA Board approval, power rates would be adjusted to a level
             sufficient to produce revenues approximately equal to projected costs. This
             methodology reflects the cause-and-effect relationship between a regulated entity’s
     
             costs and the corresponding rates the entity charges for its regulated products and
             services.
     
             Non-Fuel O&M Expenses
     
             TVA is in the bottom quartile for non-fuel O&M costs. TVA's 2007 Strategic Plan
             stated, "TVA intends to achieve top-quartile performance in non-fuel O&M expenses
   TVA
             and limit the growth of these expenses to less than the growth in sales. Within
 non-fuel
 costs in
             three years, TVA should achieve top quartile in non-fuel O&M expenditure
 bottom      performance. Achieving this goal will require TVA to reduce non-fuel O&M
 quartile    expenses relative to total generating capacity, megawatt-hour produced, and rate of
             sales growth. Meeting these goals will significantly affect TVA’s ability to achieve
     
             5
                 Unlike investor-owned utilities, TVA does not have the ability to finance its operations by issuing stock.
                 Instead, it finances its operations primarily through debt and operating revenues.
             6
                 Because TVA does not enumerate its Debt Service Coverage number in its 10-K filing with the Securities and
                 Exchange Commission (SEC), we estimated debt service coverage as the sum of the following uses of cash
                 for Financing Activities from TVA's Statements of Cash Flows from its FY 2007 10-K filing, Redemptions and
                 repurchases, short-term (redemptions)/borrowings, payments on lease/leaseback financing, payments on
                 equipment financing, and financing costs.
     
                                                                   17
    Office of the Inspector General                                       Inspection Report


    certain critical success factors identified in the Strategic Plan." As shown in
    Figure 16, TVA's was in the bottom quartile for 2004 through 2006 when
    benchmarked against other utilities. To move from bottom to top quartile, TVA set a
 
    goal of reducing non-fuel O&M costs by more than $400 million over the three-year
    period 2008 through 2010.
 
    Figure 16
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
    Source: TVA Benchmarking Summary, May 9, 2008, page II-5.
 
    Through July 2008, TVA is forecast to achieve its lowest level reduction target
 
    in non-fuel O&M expenses for FY 2008. According to TVA management, this
    target “is equal to FY 2008 Budget Load in addition to a slight improvement to
    facilitate additional productivity.” S&P notes that, "an improving trend in
    operating and maintenance costs usually indicates that a company is focusing
    on streamlining its operations and controlling costs." By TVA adding non-fuel
    O&M as an incentivized measure to its FY 2008 Winning Performance metrics,
    this indicates a new focus on streamlining operations and controlling costs. The
    critical success factor associated with this item in the Strategic Plan is to,
 
    "achieve top-quartile performance in non-fuel O&M expenses and then hold
    increases to be less than unit sales growth."




                                               18
              Office of the Inspector General                                         Inspection Report


              Diversity of Generation/Average Fuel Costs
      
              There are many factors that drive how competitive electric utilities rates are. These
Generation
              include: (1) efficient management of the power system, (2) the generation mix and
mix drives
              the associated fuel costs, and (3) geographic location of the utility relative to the
 total fuel
   cost
              available fuel, and (4) transmission cost relative to population density. TVA is
              fortunate to have a very diverse mix of generation including hydro, fossil, nuclear,
              combustion turbine, and to a lesser extent renewal energy from wind turbines. The
              ability to maintain a diverse fleet of assets is a primary driver in maintaining a
              competitive advantage.
      
              When we compared TVA's generation mix and fuel costs with Duke Energy,
              Southern Company, Progress Energy, Entergy, Alabama Power, Entergy Arkansas,
      
              Oklahoma Gas and Electric, and Union Electric Company, we noted for 2007, as
              shown in Figure 17, that:
      
              •   TVA had the highest percentage of hydroelectric generation.
      
              •   TVA was the median for coal generation and coal cost.
      
              •   TVA had the next to lowest nuclear fuel cost, but generation percentage was at
                  the median.
      




                                                       19
    Office of the Inspector General                                                              Inspection Report



    Figure 17: Comparisons of Generation and Fuel Costs Mix
                     Duke                     Southern
                                                              Progress Energy      Entergy            TVA
                    Energy                    Company
                                                      Fuel               Fuel               Fuel               Fuel
     Generation      % of      Fuel Cost    % of      Cost     % of      Cost     % of      Cost     % of      Cost
       Type        Generation (Cents/kWh) Generation (Cents/ Generation (Cents/ Generation (Cents/ Generation (Cents/
                                                      kWh)               kWh)               kWh)               kWh)
                                                                 2005
    Coal            52.50%        2.14     71.00%      1.93    47.00%      2.72    12.00%     1.57   61.52%      1.65
    Nuclear         45.70%        0.41     15.00%      0.47    42.00%      0.42    33.00%     0.49   28.24%      0.39
    Oil and Gas*     0.10%       28.83     11.00%      8.52     4.00%      19.5    21.00%     16.9    0.41%      11.44
    Hydroelectic     1.70%        N/A       3.00%      N/A      1.00%      N/A       N/A      N/A     9.83%       N/A
    Purchased         N/A         N/A        N/A       N/A        6%       N/A      34%       6.33     N/A        N/A
    Power**
                                                                 2006
    Coal            63.40%        2.16     70.00%      2.4     47.00%      2.9     11.00%     1.77   64.04%      2.02
    Nuclear         35.10%        0.42     15.00%      0.47    43.00%      0.43    33.00%     0.51   29.14%      0.38
    Oil and Gas*    0.60%        12.67     13.00%      6.63     3.00%     20.91    15.00%     22.1    0.42%      10.65
    Hydroelectic    0.90%         N/A       2.00%      N/A      1.00%      N/A       N/A      N/A     6.40%       N/A
 
    Purchased         N/A         N/A        N/A       N/A        6%       N/A      41%        5.5     N/A        N/A
    Power**
                                                                 2007
    Coal            66.50%        2.2      70.00%      2.61    48.00%      2.96    12.00%    1.86    64.05%      2.13
    Nuclear         31.20%       0.38      14.00%      0.5     42.00%      0.44    33.00%    0.57    29.70%      0.41
 
    Oil and Gas*    1.10%        9.32      15.00%      6.64     4.00%     21.47    18.00%    22.18    0.47%        7
    Hydroelectic    1.20%        N/A        1.00%      N/A      1.00%      N/A       N/A      N/A     5.78%      N/A
    Purchased         N/A        N/A         N/A       N/A        5%       N/A      37%       6.27     N/A       N/A
    Power**
 
     *Oil and Gas have been combined and therefore when reported separately were added together.
    **Some of TVA's competitors include Purchased Power as part of their generation mix and, therefore, it has
      been included only in those cases.
 
 
 
 
 
 
 
 
 
 
 




                                                         20
    Office of the Inspector General                                                                    Inspection Report



    Figure 17: Comparisons of Generation and Fuel Costs Mix (continued)
                   Alabama Power            Entergy Arkansas
                                                                     Oklahoma Gas
                                                                                           Union Electric Company
                                                                      and Electric
                                                                                  Fuel
                                 Fuel                                             Cost
     Generation      % of        Cost       % of        Fuel Cost      % of     (Dollars   % of     Fuel Cost (Dollars per
       Type        Generation   (Cents/   Generation   (Cents/kWh)   Generation   per    Generation     Million BTUs)
                                 kWh)                                            Million
                                                                                 BTUs)
                                                          2005
    Coal            67.00%       1.85      22.00%         1.57        70.00%      0.98    80.00%             0.99
    Nuclear         19.00%       0.46      43.00%         0.49          N/A       N/A     16.00%             0.42
    Oil and Gas*     8.00%       7.43       1.00%         16.9        30.00%      8.76     1.00%             8.82
 
    Hydroelectic     6.00%       N/A         N/A           N/A          N/A       N/A      3.00%             N/A
    Purchased         N/A        N/A       34.00%         6.33          N/A       N/A       N/A              N/A
    Power**
                                                          2006
    Coal            68.00%       2.09      22.00%         1.77        67.00%      1.1     77.00%             1.08
 
    Nuclear         19.00%       0.47      45.00%         0.51          N/A       N/A     20.00%             0.43
    Oil and Gas*     9.00%       7.87        N/A          22.1        33.00%      7.1      1.00%             8.62
    Hydroelectic     4.00%       N/A         N/A           N/A          N/A       N/A      2.00%             N/A
    Purchased         N/A        N/A       33.00%          5.5          N/A       N/A       N/A              N/A
    Power**
 
                                                         2007
    Coal            69.00%       2.14      24.00%        1.86         62.00%      1.1     76.00%            1.284
    Nuclear         19.00%       0.5       47.00%        0.57           N/A       N/A     19.00%            0.49
    Oil and Gas*    10.00%       7.43       0.00%        22.18        36.00%      6.77     2.00%            7.58
    Hydroelectic     2.00%       N/A         <1%          N/A           N/A       N/A      3.00%             N/A
    Purchased         N/A        N/A       29.00%        6.27           N/A       N/A       N/A              N/A
    Power**

     *Oil and Gas have been combined and therefore when reported separately were added together.
    **Some of TVA's competitors include Purchased Power as part of their generation mix and, therefore, it has
      been included only in those cases.
 
 
 
 
 
 
 
 
 
 
 
 
 
 
                                                             21
               Office of the Inspector General                                        Inspection Report


       
                                                 Customer Satisfaction
       
       
               TVA measures customer-stakeholder satisfaction by means of a Customer
 TVA rates     Satisfaction Survey. While TVA is primarily a wholesaler of power, TVA’s potential
  slightly     competitors are primarily in the retail market. We found through our research and
   above       discussions with Customer Resources that wholesale customer satisfaction data is
competitors    not readily available for benchmarking purposes. To address the issue of lack of
     on        benchmarkable customer satisfaction data, TVA created its own database.
 customer      Specifically:
satisfaction

               • TVA hired an independent third-party to obtain customer satisfaction information.
       
               • The independent third-party distributed TVA’s Customer Satisfaction Survey to
                 approximately 40 customers of TVA’s potential competitors and summarized the
       
                 results.

               • TVA used the data from the customers of TVA’s potential competitors to create
                 its own benchmarks for customer satisfaction.
               We compared TVA’s fourth quarter TVA Customer Satisfaction Survey with the
               2007 third-party benchmarking survey and noted that TVA obtained an 86 percent
               satisfied rating from its customers, as compared to an 85.1 percent satisfied rating
               given to its potential competitors. Specific results are outlined and summarized by
               category in the following table, see Figure 18.
       
               We also noted during our review that:
       
               • For first quarter FY 2008, TVA’s Customer Satisfaction Indicator had dropped
                 minimally to 85.8 percent.

               • In general, ratings from the 2007 Benchmarking Survey were lower than in the
                 2006 Benchmarking Survey.

               • TVA’s industrial customers were not as satisfied as potential competitors’
                 customers with regards to some specific elements in the Customer Satisfaction
                 Survey, including Economic Development, End-User /Interruptible Rate
                 Products, and Wholesale/Retail Price.




                                                          22
    Office of the Inspector General                                                      Inspection Report


    Figure 18
 
     Comparison of TVA’s Customer Satisfaction Survey and Benchmarking
     Survey
                                                                           2007 Benchmarking Survey of
                                       TVA Customer Satisfaction Survey
                                                                               Potential Competitors'
                                             Fourth Quarter 2007
                                                                                    Customers
                                              Percent Satisfied
                                                                                 Percent Satisfied

                                        TVA Power         Direct Serve                      Retail
                                                                            Utilities
                                        Distributors       Industrial                     Businesses
 
     Customer Service
     Staff/Account Manager            99.1             91.6               92.5          62.5
 
     Power Quality and Power
                                      95.6             96.4               97.4          88.9
     Reliability
 
     Transmission Issues              95.0             100.0              97.3          75.0
 
     Power Supply Mix                 97.2             92.5               86.1          50.0
 
     Wholesale/Retail Price           82.5             47.6               71.1          77.8
 
     End-User/Interruptible
                                      76.6             29.6               100.0         100.0
     Rate Products
 
     Fuel Cost Adjustment
                                      73.5             54.3               83.3          66.7
     Clause

     Contracts                        84.1             64.6               76.9          66.7

     Economic Development             81.6             60.9               85.2          100.0

     None-Energy Products
                                      88.5             68.9               77.8          100.0
     and Services

     Overall Supplier                 95.6             93.6               90.0          75.0

     Likelihood to Switch             90.2             *****              77.1          70.0



     Average                          88.3             72.7                  86.2       78.4

     Weight                           75.0             10.9                  73.3       11.8

     Customer Satisfaction
     Survey Winning                   86.0                                   85.1
     Performance


    Source: Developed based on data from TVA Customer Satisfaction Survey and January 2008 and
            2007 TVA Benchmarking Survey.




                                                         23
    Office of the Inspector General                                          Inspection Report


 
                                      Management Challenges
 
    A key element in maintaining effective customer relations is providing a reliable
    product at a competitive price. While TVA’s current retail rates are generally below
    market, there are increasing pressures on reliability and rates due to various
    factors. Therefore, it is important to note that TVA faces many significant
    management challenges in maintaining effective relations with its customers. We
 
    believe the top four challenges that affect the area of customer relations include:
    (1) high cost of new generation, (2) uncertainty around fuel cost and delivery,
    (3) managing an aging generation fleet with regulatory and transmission system
 
    uncertainty, and (4) inherent conflicts in TVA’s role as a regulator.
 
    Cost of New Generation
    TVA has taken actions to provide power supply in the years ahead by investing in
    nuclear and combustion turbine generation. TVA recently completed restoring
    Brown Ferry Nuclear Plant (BFN) Unit 1 to service. BFN Unit 1 provides an
 
    additional 1,150 megawatts of baseload capacity. The cost to restore was about
    $1.843 billion through May 2008 (i.e., total project costs of 2.1112 billion less
    allowance for funds used during construction of $269 million). In addition, TVA is
 
    currently constructing the Watts Bar Nuclear Plant Unit 2 and studying the
    costs/benefits of constructing additional nuclear units at the Bellefonte Nuclear Plant
    site.

    With respect to generating facilities to meet peak demand, in 2007, TVA acquired
    combustion turbine facilities that collectively provide 11 units and 1,296 megawatts
    of winter net dependable capacity. This figure represents the amount of power a
    plant can produce on an average winter day, minus the electricity used by the plant
    itself. In addition, in September 2007, the TVA Board approved the acquisition and
    construction of a combined-cycle facility in southwest Tennessee. The facility with
    an anticipated operation date of June 2010 is expected to have a planned winter net
    capacity of approximately 600 megawatts. Also, on April 3, 2008, TVA reported that
    it had agreed to purchase a three-unit, 810-megawatt combined-cycle combustion
    turbine facility for $461.3 million. On top of the purchase price, TVA will pay
    $5 million to terminate an existing operation and maintenance agreement at the
    facility.

    The cost of acquiring or building assets to meet demand and ensure reliability is
    increasing. Labor costs are increasing due to demand for individuals with
    generation asset construction knowledge and experience. Also, the costs of
    materials are increasing, as shown in the following graphs from a presentation on
    rising utility construction costs prepared for The Edison Foundation in September
    2007. These graphs have been reprinted with the permission of The Edison
    Foundation.




                                               24
    Office of the Inspector General                Inspection Report



    Figure 19: Rising Utility Construction Costs
 
 
 
 
 
 
 
 
 
 
 
 
 
 




                                         25
    Office of the Inspector General                                                   Inspection Report


 
 
 
 
 
 
 
 
 
 
 
 
 
 
 




    Source: Rising Utility Construction Costs: Sources and Impacts, The Edison Foundation,
            September 2007, pages 15, 17, and 18.


                                                   26
    Office of the Inspector General                                                                Inspection Report


    With demand for power and construction costs both growing, TVA recently
    embarked on a new energy efficiency initiative. According to TVA, the goal of this
    initiative is to reduce demand growth by up to 1,400 megawatts – about the amount
 
    generated by one nuclear unit – by 2012. By encouraging customers to conserve
    electricity, TVA believes it will be able to reduce the number of plants it must build
    and the amount of power it must purchase on the market.7 While a laudatory goal,
 
    accomplishing it will not be without challenges. Since TVA sells power through
    159 power distributors, carefully coordinated efforts will be needed to meet the goal.
 
    Fuel Cost and Delivery
 
    While consumers, including Tennessee Valley ratepayers, struggle with high gas
    prices, rising grocery bills, declining real estate values, and other economic
 
    uncertainties, they encounter rising electricity rates due to the surge in coal, oil, and
    natural gas prices. As discussed above, the bulk of TVA's generation is produced
    with coal as the fuel. While researchers state there is an abundance of coal in the
 
    United States of America (U.S.A.), price is dependent on worldwide demand.
    Demand for coal has been increasing worldwide, especially in China and India. The
    increasing global appetite for coal has fueled significant price increases. According
    to the Energy Department, U.S.A., coal exports jumped 19.2 percent last year and
    are expected to rise another 15 percent this year. Central Appalachian coal, a
    benchmark grade that’s widely used by power plants, has jumped from around
    $40 a ton in early 2007 to over a $100 a ton now. 8

    As shown in Figure 16 above, over 60 percent of TVA power generation comes
    from coal. A presentation presented to the Finance, Strategy, Rates and
    Administration Committee of the Board, "there has been a rapid increase in market
    prices since the beginning of 2008." Spot market prices for TVA coal mix has
    increased 155 percent in five years while the actual cost for TVA's coal mix has
    increased 44 percent in five years. The rise in fuel costs has not only taken place
    with coal, but also in TVA's other fuel sources, crude oil and natural gas, which rose
    46 percent and 77 percent respectively from January through June of 2008, as
    shown in Figure 20.




    7
        “Understanding How TVA Works: Time to Save Energy (Part 18 in TVA’s Business Education Series),”
        April 2008.
    8
        Source of information was Associated Press (AP) Centerpiece: Surging coal prices boost electric rates, and
        the worst may be yet to come. By John Wilen, AP Business Writer, April 28, 2008. The article was identified
        at YAHOO, FINANCE.
                                                           27
    Office of the Inspector General                                                              Inspection Report



    Figure 20
 
 
 
 
 
 
 
 
 
 
 
 
 
    Source: TVA President & Chief Executive Officer's (CEO) media briefing on August 6, 2008, slide 4.

    In addition to price increases due to demand, TVA is experiencing price increases
    as a result of the 2006 Mine Improvement and New Emergency Response (MINER)
    Act. Some TVA coal contracts have a clause allowing price increases due to
    changes in government regulations. Other factors in the market environment
    impact TVA coal price and delivery risk. For example:

    • Fewer small mines are in operation, which used to set the ceiling on coal prices
      in selected basins.
    • Further mine regulation may put marginal producers in financial trouble. Coal
      mining industry overall has poor credit ratings.
    • There is an eroding transportation infrastructure due to inadequate rail
      infrastructure investment. TVA has faced some delivery problems due to both
      mine and rail issues.
    • Barge and rail rates continue to rise, partially fueled by rising diesel fuel costs.

    Coal commodity and coal transportation risk derives from TVA’s exposure to loss
    resulting from adverse movements in coal prices related to uncontracted demand.
    Coal delivery risk exposure pertains to coal not being delivered as scheduled under
    fixed price contracts for various reasons, such as mine production issues, train and
    barge delays, unloading equipment failure, plant performance issues, or
    bankruptcy.9 In assessing this risk, TVA Operations and Fuels officials note that,


    9
        Information obtained from presentation titled, Coal Risk Management & Reporting. The presentation was
        dated December 7, 2007.
                                                          28
    Office of the Inspector General                                                             Inspection Report


    “Both price and operational risk associated with TVA’s coal procurement are among
    the most significant TVA faces.”10
 
    TVA’s cost of power is impacted by fuel prices, peak demand, and the mix of
    generation. Coal prices not only impact TVA’s cost of production, but other utilities
 
    cost of power which translates into higher TVA’s purchased power costs. As shown
    in Figure 21, a 3 percent increase in average coal cost for all of 2007 resulted in
    additional costs to TVA of almost $65 million. This increased coal cost was partially
    offset by lower costs related to nuclear and combustion turbine generation.
    Figure 21
 
 
 
 
 
 
 




    Source: November 20, 2007, TVA financial and operational update presentation given at a meeting
            of the Tennessee Electric Cooperative Association. The title of the presentation was
            "Issues Impacting Fiscal Year 2008 Rates."




    10
         Information obtained from presentation prepared by TVA Commercial Operations & Fuels, dated
         October 2007, which was titled, TVA Commodity Strategy-Coal.

                                                          29
    Office of the Inspector General                                                               Inspection Report



    Changes in TVA's generation mix and fuel costs significantly impact TVA's cost of
    power. For example, the recent drought has required TVA to purchase more power,
    and thus increasing its cost. The cost of generation varies based on the generation
    mix, fuel used to generate the power, as well as on the cost to deliver that fuel to
    the generating plant. For example:
    •      The costs of delivery for coal from Kentucky to a Kentucky-based generating
           plant would be much lower than the costs to deliver the same coal to a
 
           generating plant in West Tennessee.
 
    •      The type of coal burned by the fossil plants to meet clean air requirements also
           affects total fuel cost through price and transportation costs. During 2007, TVA's
           coal purchases were (1) 37 percent from the Illinois Basin, (2) 24 percent from
           the Powder River Basin in Wyoming, (3) 23 percent from the Uinta Basin of Utah
           and Colorado, and (4) 16 percent for the Appalachian Basin of Kentucky,
           Pennsylvania, Tennessee, Virginia, and West Virginia.
    •      According to a presentation by TVA's CEO to the media in August 2008, the
           TVA region is in its third year of drought and, as a result, TVA hydro generation
 
           is down 50 percent in FY 2008. Because of this, in summer 2008, TVA is buying
           more than 1,000 megawatts of power on a daily basis which is the equivalent of
           one nuclear unit to replace the loss of hydro power its lowest-cost power source
           with one of the most expensive, purchased power. From January through July
           2008, the price of on-peak purchased power increased more than 75 percent.

    The impact of these challenges can be seen in the TVA Board's August 20, 2008,
    approval of a 2009 budget that includes a price increase to cover increased fuel
    costs and related expenses. The factors are forcing a total average increase of
    20 percent in wholesale power rates, effective October 1, 2008. This increase will
    result in consumers seeing an average increase of $12 to $15 per 1,000 kilowatt-
    hours. Most of the increase, $11.20 per 1,000 kilowatt-hours, will go toward the
    escalating costs of fuels used to generate electricity demonstrated in Figure 20
    above. That part of the increase is the quarterly Fuel Cost Adjustment and
    according to TVA management is necessary to cover the dramatic increases in the
    cost of fuels, particularly coal and natural gas.

    Aging Generation Fleet and Transmission System

    TVA, like much of the electric utility industry, is dealing with the challenge of an
    aging infrastructure. Examples of aging include:

    •      Fifty-nine coal-fired units with an average age of about 50 years. Fossil
           Group cites plant age and condition as major contributors to TVA’s
           equivalent forced outage rate.
    •      Forty-eight combustion turbines with an average age of about 35 years.11
    •      Twenty-nine power producing dams with an average age of about 66 years.

    11
         TVA also has 24 additional combustion turbines that were placed in service in FYs 2000 through 2002.
                                                           30
    Office of the Inspector General                                                              Inspection Report


    •      A transmission system that in FY 1998 had 24 percent of its substation
           transformers over 50 years old, 39 percent of its plant transformers over
           50 years old, 39 percent of its circuit breakers over 40 years old, and
 
           21 percent of its protective relays over 40 years old.
 
    TVA is faced with the challenge of maintaining and, in some cases, modernizing or
 
    rehabilitating its aging infrastructure in an environment which includes (1) increasing
    demands on the transmission system from new merchant plants, open-access
    requirements, and transmission wheeling; (2) increasing power demand, especially
    during peak seasons; (3) the need to maintain system reliability; (4) changing
    environmental requirements and legislation (e.g., Clean Air Requirements); and
    (4) the pressure to keep power rates low. At the same time, TVA (1) faces capital
    and O&M expenditure decisions with regard to the fossil fleet and (2) has opted to
 
    complete Unit 2 at Watts Bar Nuclear Plant and is studying the costs and benefits of
    completing units at Bellefonte Nuclear Plant. Previously, in this report, we have
    discussed increasing power demand, reliability, and rates, but clean air
 
    requirements and the increasing demand on the transmission system are also key
    challenges.
 
    Clean Air Requirements
    As of March 21, 2008, TVA reported that $4.8 billion has been invested to reduce
    emissions and is in the process of investing another $1 billion through 2010 on
    additional controls. TVA plans to spend an additional $3 billion to $3.6 billion to
    comply with the Environmental Protection Agency’s Clean Air Interstate Rule
    (CAIR). According to TVA management, this would bring TVA’s investment in
    emission controls to over $9 billion. The $4.8 billion invested since the late 1970's to
    date has reduced sulfur dioxide (SO2) from TVA plants by more than 81 percent
    and has reduced NOX [nitrogen-oxide] from TVA plants during the summer ozone
    season by more than 80 percent.12

    However, on July 11, 2008, a federal appeals court unanimously ruled that EPA
    overstepped its authority when it instituted CAIR. It was reported that a few electric
    companies opposed CAIR, but most favored it because it included cap-and-trade
    provisions related to emission credits.13 Now TVA possibly faces a new law or
    replacement regulation and possible carbon and mercury legislation. In summary,
    clean air compliance impacts our production planning, maintenance, and capital
    investment decisions which impact reliability and rates.

    Increased Transmission Line Access
    TVA is part of the Eastern Power Grid that runs from Canada to Key West. All of
    the transmissions in between are linked, and problems anywhere on the grid can
    affect systems hundreds of miles away. Whenever there is loss of a large
    generating unit or a major transmission-line outage, the system must immediately
    be assessed and stabilized or the results can be catastrophic. In August 2003, as
    many as 50 million people were without power in Massachusetts, Michigan, New

    12
         Information obtained from TVAtoday dated March 21, 2008.
    13
         Source was article titled, Court Vacates CAIR Emissions Plan, published by Power Engineering, August 2008.
                                                           31
    Office of the Inspector General                                            Inspection Report


    Jersey, New York, Ohio, Connecticut, and Ontario. TVA does many things to make
    sure this does not happen in the Tennessee Valley, including building new
    transmission lines and power-delivery points to strengthen the grid. TVA reports
 
    that as strong as TVA’s system is, blackouts show that the grid is increasingly
    vulnerable to growing demands. In summary, maintaining reliability through an
    updated, well-maintained, and expanded transmission system requires
 
    infrastructure investment which impacts rates.
 
    TVA’s electric transmission system moves power from the generating stations
    where it is produced to distributors of TVA power and to industrial and federal
    customers across the region. In addition, TVA provides transmission service on a
    nondiscriminatory, as-available basis to other qualified power providers requiring
    power transfers out of or through the TVA system. It also provides interconnection
 
    services to independent power producers consistent with sound reliability practices.
    In February 2008, according to the TVA publication TVAtoday, TVA Chief Operating
    Officer (COO) Bill McCollum told a prominent panel of industry leaders that honesty,
 
    realism, and understanding who’s benefiting and who’s paying must guide any
    plans to meet the challenges facing the Nation’s electric power grid. According to
    TVAtoday, the panel was examining how the grid needs to adapt to meet the
    challenges of global climate change, increasing demand for electricity and energy
    security. TVA’s COO also stated, “A system designed from a pure reliability
    standpoint is now being asked to stand up to some new challenges, including how
    to adapt to renewable generators that operate intermittently and how to build longer
    transmission lines to move power from remote generators to population centers.”

    Customer Relations and TVA’s Role as a Regulator

    The TVA Act places the organization in a situation of inherent conflict in attempting
    to maintain good relations with its customers while at the same time being tasked
    with regulating them to keep rates as low as feasible. The OIG report on “TVA’s
    Role as a Regulator (TVA's Role as a Regulator, Inspection 2005-522I, June 13, 2006,
    can be found on the TVA OIG Web site at http://oig.tva.gov/PDF/06rpts/2005_522I.pdf.)
    demonstrated a weakness in regulation of distributors by TVA. In that report, we
    recommended that the Chief Financial Officer (1) continue to evaluate TVA’s role as
    a regulator of rates as issues of deregulation and customer choice evolve;
    (2) formalize procedures to ensure consistent review of (a) distributor financial
    information and (b) business plans which propose the use of electric system
    revenues for non-electric system purposes; and (3) ensure that contract
    modifications are executed for any distributors approved to use electric system
    revenues for non-electric purposes.

    In January 2008, the Financial Services organization created a “Role as Regulator”
    Working Group. “The Working Group will address issues related to both TVA’s role
    as a regulator of distributor retail rates and distributor use of revenues.” In August
    2008, the Working Group recently made recommendations in a final report to TVA
    management and the Board of Directors. The OIG will formally respond to this
    report and its recommendations and will continue to monitor this area given its
    impact on customer relations.
                                               32
    Office of the Inspector General                                          Inspection Report


    The fact that it took TVA over two years to respond to our report suggests the
    magnitude of the problem. The TVA Act gives the Board authority to include terms
    and conditions in power contracts as needed to carry out the purposes of the Act,
 
    which include keeping rates as low as feasible. Pursuant to this authority, most
    power contracts include, in addition to a required nondiscriminatory provision, terms
    and conditions related to resale rates, use of revenues, and financial and
 
    accounting requirements. It remains to be seen as to whether or not TVA can
    manage this increasing conflict. When Congress enacted the TVA Act creating TVA,
    it could not have foreseen the current circumstances that compromise TVA’s
    integrity as a regulator. It is likely that the increasing demands of distributors upon
    TVA will increase the conflict for TVA.
 
    In recent years, distributors have begun to see options to purchase power from
 
    companies other than TVA. The restrictions on TVA selling power outside the
    Valley, however, remain unchanged. Because TVA cannot obtain new customers
    outside the Valley, TVA has a strong incentive to take steps to ensure it retains its
 
    current customers. As competition becomes more and more a reality, this incentive
    grows. This compounds the difficulty for TVA being an objective regulator of these
    customers.

 
 




                                              33
                                                                    APPENDIX
                                                                    Page 1 of 1


                  OBJECTIVE, SCOPE, AND METHODOLOGY

The objectives of our customer-stakeholder performance review were to assess
(1) how TVA evaluates and tracks performance (i.e., performance measures),
(2) whether TVA’s performance indicators correlate to annual performance goals
and TVA’s Strategic Plan (i.e., alignment of performance measures), and (3) TVA’s
overall performance (i.e., performance results). The scope of our review included
any measures used by TVA to track customer-stakeholder performance and
industry best practices regarding customer-stakeholder performance. To achieve
our objectives, we:

•   Interviewed key TVA personnel to determine:
    – How TVA currently measures customer-stakeholder performance.
    – Whether TVA has implemented initiatives to improve performance.
    – Whether TVA currently benchmarks its customer-stakeholder performance.

•   Reviewed TVA’s current strategic plan and performance goals to identify TVA’s
    published strategic objectives, goals, and critical success factors.

•   Analyzed information obtained through research and from Customer Resources
    to determine (1) what measures TVA currently uses to track customer-
    stakeholder performance, (2) whether measures being used align with TVA’s
    current strategic plan, and (3) how TVA is doing compared to the industry and
    the goals it set for itself.
    – We obtained documentation from key TVA personnel and/or TVA’s Web site
      on TVA’s customer-stakeholder performance, including customer
      satisfaction surveys and third-party benchmarking data. Other data and
      information was obtained from various sources, including published
      documents and competitors’ publicly available information. We did not
      independently verify this data.
